No. 20-1693

In the

Supreme Court of the United States
ERICK ALLEN OSBY,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I,
Christopher D. Man, certify that the accompanying
Amici Brief of Former Federal District Court Judges
and Law Professors in Support of Petitioner contains
3,278 words, including any footnotes and excluding
the parts of the document exempted by Rule 33.1(d).
/s/ Christopher D. Man
CHRISTOPHER D. MAN
Counsel of Record
WINSTON & STRAWN LLP
1901 L Street, N.W.
Washington, DC 20036
202-282-5622
CMan@winston.com

